No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARC ANTHONY LOWELL ENDSLEY - PETITIONER
(Your name)

FILED
. AUG 3 1 2020
OFFICE OF THE CLERK
qi IPRFME COURT, U.S^

VS.

CINDY BLACK, et al. - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE CALIFORNIA SUPREME COURT
PETITION FOR WRIT OF CERTIORARI

Marc Anthony Lowell Endslev
(Your Name)
Napa State Hospital. 2100 Napa-Vallejo Hwy,
(Address)
Napa. CA 94558-6293
(City, State, Zip Code)
(7071 252-9730/7276
(Phone Number)

i.

QUESTION(S) PRESENTED
1.

Whether persons involuntarily civilly detained as insanity acquittees are entitled to the
due process protections constitutionally required for all other classes of persons
involuntary civilly detained.

2.

Whether persons involuntarily civilly detained as insanity acquittees can be subject to a
program of conditional release and accorded lesser protection of constitutional rights than
convicted criminals subject to supervised release.

3.

Whether persons released from involuntarily civil confinement to court-ordered
conditional release can be held in some other form of confinement (i.e., a "step-down"
program) which is neither ordered by the court nor defined in the law.

4.

Whether persons involuntarily civilly detained as insanity acquittees can be required to
participate in a program of conditional release which has subjected them to
"unconstitutional conditions" and retaliation.

5.

Whether persons who no longer meet the criteria to be classified as insanity acquittees
and who are placed on conditional release can be subject to recommitment to a State
hospital as insanity acquittees without the due process procedures required in civil
commitment proceedings.

6.

Whether persons involuntarily civilly detained as insanity acquittees have a right to have
the evaluations which form the bases for their court reports, which recommend either
release or continued confinement, recorded as convicted criminals have a right to have
their parole hearings recorded.

7.

Whether the State's statutory scheme for continued confinement of persons involuntarily
civilly detained as insanity acquittees can indefinitely withhold hearings and all
associated due process procedures.

ii.

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the Case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

MARC ANTHONY LOWELL ENDSLEY,
PETITIONER,
YS.
CINDY BLACK, PAM AHLIN, and GAVIN NEWSOM,
RESPONDENT(S).
The petitioner is Marc Anthony Lowell Endsley, a civilly detained insanity acquittee
under the authority of the California Department of State Hospitals and confined at Napa State
Hospital in Napa, California. The respondents are Cindy Black, petitioner's legal custodian; Pam
Ahlin, the Director of the California Department of State Hospitals; and Gavin Newsom,
Governor of the State of California.

iii.

TABLE OF CONTENTS
OPINIONS BELOW.

1

JURISDICTION

,2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

.4

REASONS FOR GRANTING THE PETITION

6

CONCLUSION

26
INDEX TO APPENDICES

APPENDIX A

Decision of California Court of Appeals, Fourth District, Division Two

APPENDIX B

Decision of California Superior Court for the County of San Bernardino

APPENDIX C

Decision of the California Supreme Court Denying Review

APPENDIX D

Decision of the California Supreme Court Denying Rehearing

APPENDIX E

APPENDIX F

iv.

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
Albertson v. Superior Court, (2001) 107 Cal.Rptr.2d 381............
7
Baxstrom v. Herold. (1966) 383 U.S. 107....................................
17
Brown v. Entertainment Merchants Ass'n. (2011) 131 S.Ct. 2729
15
Conservatorship of Hofferber. (1980) 28 Cal.3d 161....
10
Crawford-El v. Britton. (1998) 523 U.S. 574................
15
Estelle v. Gamble. (1976) 429 U.S. 97.........................
12
Foucha v. Louisiana. (1992) 504 U.S. 71...................... 6, 7, 8, 9, 11, 12, 16, 17, 18, 23,24
Hartman v. Summers. (9th Cir. 1997) 120 F.3d 157...................................................21,23
Hubbart v. Superior Court. (1999) 19 Cal.4th 1138...... ......................6, 7, 8, 9, 16,17, 23
Hydrick v. Hunter. 500 F.3d 978 (9th Cir. 2007)........................................................12, 19
In re Franklin. (1972) 7 Cal.3d 126...............................
20
In re Howard N., (2005) 35 Cal.4th 117.......................
6, 8, 9, 17, 23
In re Jones. (1986) 260 Cal.App.3d 56..........................
21
In re Move. (1978) 22 Cal.3d 457.................................
9
In re Reyes. (1984) 161 Cal.App.3d 656.......................
.20
Jackson v. Indiana. (1972) 406 U.S. 715.......................
17
Jones v. United States. (1983) 103 S.Ct. 3043..............
...9, 16, 24
Kansas v. Hendricks. 117 S.Ct. 2072 (U.S. Kan. 1997).
6, 8, 17, 23
People v. Endslev. (2016) 248 Cal.App.4th 110............
,4, 20
People v. Endslev. (2018) 28 Cal.App.5th 93................
,4,21
People v. Galindo. (2006) 142 Cal.App.4th 531............
9
People v. Gibson. (1988) 204 Cal.App.3d 1425............
10
People v. McKee. (2010) 47 Cal.4th 1172.....................
7,9
People v. Soiu. (2003) 106 Cal.App.4th 1191...............
.20
People v. Sudan, (2007) 158 Cal.App.4th 655...............
9
People v. Tilbury, (1991) 54 Cal.3d 56..........................
,21
People v. Vasquez. (2nd Dist. 2018) 27 Cal.App.5th 36
,21
People v. Williams. (2003) 31 Cal.4th 757....................
9
Sharp v. Weston. (9th Cir. 2000) 233 F.3d 1166............
12
Thomas v. Review Bd.. (1981) 450 U.S. 707................
15
U.S. v. Edein, (C.A. 10 (Okla.) 1996) 92 F.3d 1044.....
13
U.S. v. Lov, (C.A. 3 (Pa.) 2001) 237 F.3d 251)..........
13
U.S. v. Scott. (C.A. 9 (Ill.) 2003) 316 F.3d 733.............
13
U.S. v. Wolf Child. (C.A. 9 (Mont.) 2012) 699 F.3d 1082
13

v.

Young v. Weston. (C.A.9 (Wash.) 1999) 192 F.3d 870
Youngberg v. Romeo. (1982) 457 U.S. 307.................

,22

12, 19

STATUTES AND RULES
PAGE NUMBER
18U.S.C. §3553......................................................
13
18U.S.C. §3583....................................... ..............
13
Americans with Disabilities Act, 42 U.S.C. §12101
3,22
California Penal Code, §422...................................
15
California Penal Code, §1026................................. ........................................4, 8, 14, 18
California Penal Code, §1026.2.............................. 4, 5, 11, 12, 14, 15, 16, 20, 21, 22, 23
California Penal Code, §1026.3.............................. ................................................12, 16
California Penal Code, §1026.5..............................
8,21
California Penal Code, §1027.................................
14
California Penal Code, §1382.................................
,21
California Penal Code, §1608.................................
17
California Penal Code, §2960.................................
10
California Penal Code, §2962.................................
10
California Penal Code, §2966................................
21
California Penal Code, §3041.5..............................
19
California Penal Code, §3042.................................
19
California Penal Code, §3043.................................
19
California Welfare and Institutions Code, §1801.5..
9,21
California Welfare and Institutions Code, §5000....
10
California Welfare and Institutions Code, §5300.5..
10
California Welfare and Institutions Code, §5303....
21
California Welfare and Institutions Code, §6600....
6
OTHER
CALCRIM §3453...............................................
California Constitution, Article 1.......................
ConReP Policy and Procedure Manual, §1310.5

vi.

PAGE NUMBER
9
20

18

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at___________________________________
■
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

; or,

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at________________________________________
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

or,

[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C to the petition and
[ ] is reported at______________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

or,

The opinion of the California Court of Appeal, Fourth District, Division Two
appears at Appendix A to the petition and
[ ] is reported at______________________________________
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
1 of 26

or,

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was 6-17-2020.
A copy of that decision appears at Appendix C .
[x] A timely petition for rehearing was thereafter denied on the following date:
7-2-2020
and a copy of the order denying rehearing
appears at Appendix_____ D____
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on _
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2 of 26

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves Amendment XIV to the United States Constitution, which provides:
Section 1. All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
*

*

*

Section 5. The Congress shall have power to enforce, by appropriate legislation, the provisions of this
article.

The Amendments are enforced by Title 28, Section 1257(a), United States Code:
Final judgments or decrees rendered by the highest court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of certiorari where the validity of a treaty or statute of the
United States is drawn in question or where the validity of a statute of any State is drawn in question on the
ground of its being repugnant to the Constitution, treaties, or laws of the United States, or where any title,
right, privilege, or immunity is specially set up or claimed under the Constitution or the treaties or statutes
of, or any commission held or authority exercised under, the United States.

The Amendments are enforced by Title 42, Section 1983, United States Code:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any action brought against a judicial officer for an act or
omission taken in such officer's judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable. For the purposes of this section, any Act of
Congress applicable exclusively to the District of Columbia shall be considered to be a statute of the
District of Columbia.

The Amendments are enforced by Title 42, Section 12101(b)(4), United States Code:
[The purpose of the ADA Amendments Act of 2008 is] to invoke the sweep of congressional authority,
including the power to enforce the fourteenth amendment and to regulate commerce, in order to address the
major areas of discrimination faced day-to-day by people with disabilities.

3 of 26

STATEMENT OF THE CASE

In 1997, petitioner was acquitted on grounds of insanity and committed for treatment of a
mental illness pursuant to California Penal Code ("PC.") §1026.
In May of 2015, petitioner filed a petition for a conditional outpatient hearing pursuant to
P.C. §1026.2 (hereinafter "§1026.2 hearing"). P.C. §1026.2 is the State's statutory scheme for
continued involuntary civil confinement of insanity acquittees. (All further references to the
State's statutory scheme for continued confinement of insanity acquittees refer to this Section
unless otherwise noted.) Through his §1026.2 petition, petitioner raised federal questions
regarding the constitutionality of the statutory scheme and sought release. In contravention to
California law, the Superior Court denied the §1026.2 hearing. Petitioner appealed, and the
Court of Appeals found the denial of the hearing to be unconstitutional and contrary to law and
remanded for a hearing. (People v. Endslev. 120161 248 Cal.App.4th 110.1 The Superior Court
conducted a §1026.2 hearing between 5-8-2017 and 6-5-2017. However, due to the
constitutional deficiencies in the statutory scheme, petitioner could not prevail. Petitioner filed a
second appeal. The Court of Appeals held that petitioner's §1026.2 hearing failed to comply with
due process and issued remittitur for a new hearing in October of 2018. (People v. Endslev.
(2018) 28 Cal.App.5th 93.) In the intervening two years, the trial court has refused to provide
petitioner a § 1026.2 hearing and to otherwise comply with the remittitur order. Petitioner has
filed two writs of mandate in the Court of Appeals asking the appellate court to order the trial
court to comply with the remittitur order and provide the §1026.2 hearing. (Appellate Court
Nos. E072764 and E073904, respectively.) Both writs of mandate were denied.
On 12-16-2019, petitioner filed a petition for writ of habeas corpus ("petition") restating
the federal questions he has tried to raise through his § 1026.2 petition, alleging he is and has
been denied due process and equal protection rights under the U.S. Constitution through the
State's statutory scheme, and that he no longer met the criteria for involuntary civil confinement.
Each claim in the petition was clearly stated to be based on the Clauses of the U.S. Constitution
and/or cited U.S. Supreme Court rulings for controlling authority. Thus, the federal questions
4 of 26

sought to be reviewed were clearly and unequivocally raised at the initial pleading stage in both
the court of first instance and the court of appeal. The petition further alleged that (1) the
specific rights denied have been mandated by both the United States Supreme Court and the
California Supreme Court for any form of involuntary civil confinement to comply with the Due
Process Clause of the U.S. Constitution; (2) those rights have been granted to all of California's
other classes of civilly confined persons; (3) petitioner has attempted to raise the federal
questions of denial of those rights through the State's statutory scheme since 2015; (4) the
statutory scheme has been used to deny petitioner hearings on both the federal questions
presented and on the issue of whether petitioner meets the criteria to be classified and subject to
continued civil confinement as an insanity acquittee; and (5) this "injury in fact" under the State's
statutory scheme gave petitioner standing to challenge the constitutionality of the statutory
scheme via writ of habeas corpus.
The Superior Court denied the petition on the ground that petitioner was required raise
the federal questions through a §1026.2 hearing even though the petition clearly stated that
petitioner is subject to indefinite denial of said hearings. Petitioner refilled the petition in the
Court of Appeals. The Court of Appeals denied the petition. On 4-13-2020, Petitioner filed a
petition for review in the California Supreme Court. In the Answer and Supplemental Answer,
the respondents (or "State") asserted that petitioner was required to exhaust his federal questions
through a §1026.2 hearing and that the availability of that process foreclosed his petitions for
either writ of habeas corpus or review. The State further asserted that there would be no further
delays in petitioner's §1026.2 hearing and that he would receive a hearing on 6-25-2020. The
California Supreme Court denied the petition for review on 6-17-2020. On 6-25-2020, petitioner
did not receive a §1026.2 hearing, and neither his counsel of record nor the trial court have been
in contact with him regarding that hearing or any future hearings. On 6-25-2020, petitioner filed
a petition for rehearing in the State Supreme Court. On 7-2-2020, the petition for rehearing was
denied.

5 of 26

REASONS FOR GRANTING THE PETITION

A.

Conflicts with Decisions of Other Courts.

The courts below have held that insanity acquittees may be denied hearings, are not
entitled to the due process protections mandated for involuntary civil confinement to comply
with the Due Process Clause of the U.S. Constitution, and that this injury does not give insanity
acquittees standing to petition for writ of habeas corpus. These holdings are directly contrary to
the prior rulings of numerous courts, including the U.S. Supreme Court, the Ninth Circuit Court
of Appeals, and even the State Supreme Court.
A.l.

Petitioner's Continued Involuntary Civil Confinement Violates the
Due Process and Equal Protection Clauses of the U.S. Constitution.

In Foucha v. Louisiana. (U.S. La. 1992) 504 U.S. 71 (Foucha), this Court defined the
standards by which involuntary civil confinement may continue when a citizen is hospitalized
due to an acquittal on grounds of insanity. Under Foucha. an insanity acquittee "may be held as
long as he is both mentally ill and dangerous, but no longer". (Foucha. 504 U.S. at 77.)
In Hubbart v. Superior Court. (1999) 19 Cal.4th 1138 (Hubbart), the California Supreme
Court analyzed both Foucha and Kansas v. Hendricks. (1997) 521 U.S. 346 (Hendricks) in
relation to civil commitment of persons under California's Sexually Violent Predator statute
("SVP", Cal. Welfare & Institutions Code ("WIC") §6600, et seq.). Hubbart determined that
whatever the diagnosed mental disorder may be, it must affect the volitional capacity of the
individual. "According to [Hendricks], civil commitment is permissible as long as the triggering
condition consists of 'a volitional impairment rendering [the person] dangerous beyond their
control'". (Hubbart. 19 Cal.4th at 1156, quoting Hendricks. 521 U.S. at 358.)
The California Supreme Court went on to define "volitional impairment" as a mental
deficiency, disorder, or abnormality that causes a person to have "serious difficulty controlling
his dangerous behavior". (In re Howard N.. (2005) 35 Cal.4th 117, 135-36 (Howard).)

6 of 26

A.l.a Insanity Acquittees Are Denied A Professionally Adequate And
Current Diagnosis To Justify Their Continued Confinement And Can
Be Denied Release When Diagnosed In Full Remission.
Pursuant to the rulings of the United States and California Supreme Courts, a person must
be suffering from a current mental disorder for involuntary civil confinement to comply with due
process.
The "written report [of the examining doctors at the release hearing] stated that Foucha 'is
presently in remission from mental illness.... t

ft

(Foucha. 504 U.S. 71, -.) "The [United States

Supreme Court] noted that since there was no evidence or claim that Foucha was presently
insane or mentally disturbed [at the time of the release hearing], the basis for confining Foucha
as an insanity acquittee had 'disappeared'". (Hubbart. 19 Cal.4th at 1159, quoting Foucha. 504
U.S. at 78 (emphasis added).)
The California Supreme Court ruled that for civil commitment of SVPs to be
constitutional such a commitment must be based on a current mental disorder because "[u]nlike
criminal cases or most civil cases where the facts are the facts and they don't change over time,
mental condition can". (Albertson v. Superior Court. (2001) 107 Cal.Rptr.2d 381, 384
(Albertson).) According to the California Supreme Court, the interest in obtaining information
concerning the individual's current mental state serves "to avoid committing a person who does
not currently suffer from a qualifying mental disorder, and to support the commitment of a
person who does suffer from a qualifying mental disorder". {Idem, at 386.) The due process
concerns articulated for SVPs apply with equal force to insanity acquittees because a finding that
a person meets the definition of an SVP is "the functional equivalent of the NGI acquittal".
(People v. McKee. (2010) 47 Cal.4th 1172, 1191 (McKee).)
The State's diagnosis of petitioner's mental illness is based exclusively on his alleged
mental condition at the time of his committing offense in 1995, with no evidence of a present
mental disturbance. Such a diagnosis is inconsistent with the rulings of both the California and
United States Supreme Courts and with generally accepted professional standards of care.
Generally accepted professional standards of care, pursuant to the Diagnostic and Statistical

7 of 26

Manual ofMental Disorders- V ("DSM-V"), require that a patient's mental illness diagnosis be
revised in a timely manner and be based on current symptomology.
Further, petitioner was repeatedly diagnosed to be in "full remission" from mental illness
in various hospital reports authored by Atascadero State Hospital ("Atascadero") between 2012
and 2016. Despite this, the State courts refused to order his release.
California's statutory scheme allows insanity acquittees to be subject to continued
involuntary civil confinement without either evidence of a present mental disorder or a current
mental illness diagnosis, contrary to the rulings of this Court and the State Supreme Court, and
for the State to disregard the insanity acquittee's current mental state in formulating the
acquittee's diagnosis, contrary to generally accepted professional standards of care.
A.l.b. Insanity Acquittees Are Denied Consideration of Whether They Suffer
From A Volitional Impairment.
The California Supreme Court unanimously expressed that the definition of mental illness
warranting involuntary civil confinement is primarily a legislative task, but "however the
Legislature does or does not choose to define 'mental...deficiency, disorder, or abnormality,' due
process principles require that the state demonstrate that the 'mental...deficiency, disorder, or
abnormality' causes the person to have serious difficulty controlling his dangerous behavior".
(Howard. 35 Cal.4th at 135-36.) "According to IHendricksI, civil commitment is permissible as
long as the triggering condition consists of 'a volitional impairment rendering [the person]
dangerous beyond their control'". (Hubbart, 19 Cal.4th at 1156, quoting Hendricks. 521 U.S. at
358.) "[Foucha] is not inconsistent with the general due process principles set forth in
[Hendricks]...." (Hubbart. 19 Cal.4th at 1161.)
California acknowledges the due process requirement that the State must demonstrate a
volitional impairment in order to justify civil confinement for all classes of civil detainee except
insanity acquittees who have not reached their maximum term of commitment. (California law
calculates an insanity acquittee's maximum term of commitment as the maximum amount of time
the acquittee could have been sentenced to prison, including all enhancements, had he/she been
convicted. SeeP.C. § 1026(e)(2); §1026.5(a).) Unanimous jury verdict required that a juvenile
8 of 26

has "serious difficulty controlling his or her dangerous behavior" to civilly confine juvenile upon
expiration of juvenile sentence. (Howard: WIC §1801.5.) For civil confinement of SVPs to
comply with due process, the SVP must suffer from a volitional impairment rendering the person
dangerous beyond their control. (Hubbart. 19 Cal.4th at 1156; People v. Williams. (2003) 31
Cal.4th 757 (Williams).) To extend insanity acquittees beyond their maximum term of
commitment there must be "substantial evidence" of serious difficulty controlling dangerous
behavior. (People v. Galindo. (2006) 142 Cal.App.4th 531 (Galindo): People v. Sudar. (2007)
158 Cal.App.4th 655, 662-63 (Sudar): CALCRIM 3453 (court has a sua sponte duty to instruct
on the constitutional requirement that the person has "a disorder that seriously impairs the ability
to control his or her dangerous behavior", and the burden is on the State to prove beyond a
reasonable doubt).)
According to the California Supreme Court, the identification of some differences "does
not explain why one class should bear a substantially greater burden in obtaining release from
commitment than the other". (McKee. 47 Cal.4th at 1203.)
The denial of the requirement of a volitional impairment solely to continued confinement
of insanity acquittees who have not reached their maximum term of commitment violates the due
process standards articulated by both the United States and California Supreme Courts, is for
purposes of punishment, and serves no legitimate interest. "...There is simply no necessary
correlation between the length of the acquittee's hypothetical criminal sentence and the length of
time necessary for his recovery...." (Jones v. United States. (1983) 103 S.Ct. 3043, 3045
(Jones).) "A State...may of course imprison convicted criminals for the purpose of deterrence
and retribution... Here, the State has no such punitive interest...." (Foucha. 504 U.S. at Part II of
the opinion.) Commitment to a State hospital pursuant to an acquittal on grounds of insanity "is
for purposes of treatment, not punishment". (In re Move. (1978) 22 Cal.3d 457, 466 (Move).)
California's statutory scheme for continued confinement of insanity acquittees who have
not served their maximum, hypothetical criminal sentences is the State's only civil confinement
scheme that denies consideration of a volitional impairment.

9 of 26

A.l.c. Insanity Acquittees Are Denied Consideration of Whether They Are
Presently Dangerous.
California law allows the State to go back an indefinite period of time, or to rely entirely
on an acquittee's committing offense, to prove an insanity acquittee's present dangerousness.
This violates both due process and equal protection. People v. Gibson. (1988) 204 Cal.App.3d
1425, 1442 (Gibson) ("...There has been no showing [by the Legislature] that the complete
elimination of proof of some degree of present dangerousness is necessary to protect the
public"); Idem, at fh.16 ("Our Supreme Court has expressly rejected a permanent conclusive
presumption of dangerousness [based on a prior criminal offense] because, inter alia, the passage
of time by itself diminishes the validity of the presumption", citing Conservatorship of Hofferber.
(1980) 28 Cal.3d 161, 177 (Hofferber)).
Demonstrable acts of dangerousness within a reasonable period are required for similarly
situated classes of civil detainees. A criminal parolee civilly committed as a Mentally
Disordered Offender ("MDO", PC. §2960, et seq.) may only be committed for treatment if either
he/she is not in remission or "if during the year prior to the question being before the Board of
Parole Hearings or a trial court, he or she has been in remission and he or she has been physically
violent, except in self-defense, or he or she has made a serious threat of substantial physical harm
upon the person of another..., or he or she has intentionally caused property damage, or he or she
has not voluntarily followed the treatment plan...." (PC. §2962(a)(3) (emphasis added).) The
State's Lanterman-Petris-Short Act ("LPS", WIC §5000, et seq.) statute places a six year statute
of limitations on demonstrable acts of dangerousness to support a 180-day commitment under
WIC, Article 6, Postcertification Procedures For Imminently Dangerous Persons. "Demonstrated
danger may be based on assessment of present mental condition, which is based upon a
consideration of past behavior of the person within six years prior to the time the person
attempted, inflicted, or threatened physical harm upon another, and other relevant evidence".
(WIC §5300.5(c) (emphasis added).)
California's statutory scheme places no such statute of limitations on demonstrable acts of
dangerousness for insanity acquittees and can find dangerousness solely on the basis of their

10 of 26

committing offense, regardless of how much time has passed.
A.l.d. Insanity Acquittees Are Denied Timely Release Upon A Successful
Petition For Release.
California law stipulates that should an insanity acquittee prevail on a §1026.2 petition,
the community program director or a designee "shall make the necessary placement arrangements, and, within 21 days after receiving notice of the court finding, the person shall be
placed in the community in accordance with the treatment and supervision plan...." (P.C.
§ 1026.2(h).)
However, once a court finds that an insanity acquittee is entitled to release under P.C.
§1026.2, the acquittee often continues to languish in confinement in a State hospital for months
or even years. The State justifies this by saying that there are insufficient available bed spaces in *
it's mandatory conditional release program (ConReP) to accommodate persons waiting to be
released.
In Foucha, this Court said nothing about insanity acquittees' due process right to release
being contingent upon whether the State chooses to spend the money to provide sufficient
outpatient resources. In fact, Foucha does not authorize release to be conditional at all once the
acquittee is no longer either mentally ill or dangerous.
To continue to confine an insanity acquittee in a State hospital after the acquittee has
secured a judicial determination that he/she does not meet the criteria for such involuntary civil
confinement on the grounds that there are not enough State-mandated outpatient housing
facilities, is analogous to continuing to incarcerate a convicted criminal in prison after he has
served his entire sentence because the State mandates he go to a half-way house but chooses not
to provide enough half-way houses.
California's statutory scheme mandates that insanity acquittees who prevail on a §1026.2
petition for conditional release be released within 21 days. Failure of the State to provide
sufficient mandatory conditional release resources to comply with its own laws should not be
considered "good cause" for the State's continued confinement of insanity acquittees who can no
longer be so classified.
11 of 26

A.2

The State's Conditional Release Program Accords Insanity Acquittees
Less Constitutional Rights Than Those Accorded To Prisoners
Granted Supervised Release In Violation of the Due Process Clause of
the U.S. Constitution.

As a prerequisite to release, an insanity acquittee must be placed in "an appropriate
forensic conditional release program" ("conditional release"). Solely for insanity acquittees who
have not served their maximum term of commitment, conditional release is mandatory. (P.C.
§ 1026.2(e); §1026.3.) Conditional release services are exclusively facilitated by the California
Conditional Release Program ("ConReP"). To be accepted into ConReP, an insanity acquittee
must agree to terms and conditions of conditional release which greatly infringe upon his/her
significant liberty interests, are impermissibly vague, are overbroad, and are more restrictive than
conditions for supervised release of convicted criminals, i.e., parole.
This Court has never authorized a State to demand that a person involuntarily civilly
confined must agree to any form of conditional release or to waive his or her constitutional rights
as a prerequisite to release once the person is no longer either mentally ill or dangerous.
(Toucha. supra, 504 U.S. 71.)
Assuming arguendo that such conditional release is constitutional, under the Due Process
Clause, the terms and conditions of a civil detainee's conditional release cannot accord the
detainee less constitutional rights than those accorded to convicted criminals granted supervised
release because persons "who have been involuntarily committed are entitled to more considerate
treatment and conditions of confinement than criminals whose conditions of confinement are
designed to punish". (Toungberg v. Romeo. (1982) 457 U.S. 307, 321-22 (Youngberg), citing
Estelle v. Gamble. (1976) 429 U.S. 97, 104.) "It follows logically, then, that the rights afforded
prisoners set a floor for those that must be afforded [those civilly detained]...." (Hydride v.
Hunter, (9th Cir. 2007) 500 F.3d 978, 989 (Hydride), citing Youngberg. 457 U.S. at 322
(generalization added); Sharp v. Weston. (9th Cir. 2000) 233 F.3d 1166, 1172.)
The constitutional protections accorded to convicted criminals granted supervised release
are clearly defined: (1) a condition of supervised release must be reasonably related to the nature
and circumstances of the offense and the history and characteristics of the defendant; (2) the

12 of 26

condition must involve no greater deprivation of liberty than is reasonably necessary given the
needs to afford adequate deterrence to criminal conduct, to protect the public from further crimes
of the defendant, and to provide the defendant with needed educational or vocational training,
medical care, or other correctional treatment in the most effective manner; (3) where conditions
of supervised release implicate a particularly significant liberty interest, the court must support
its decision to impose the condition on the record with record evidence that the condition is
necessary and involves no greater deprivation of liberty than is reasonably necessary; and (4) the
condition cannot be impermissibly vague in violation of the requirements of due process, or
overbroad, restricting more of the defendant's liberty than necessary. (See generally, 18 U.S.C.
§3583 and §3553; U.S. v. Edein. (C.A. 10 (Okla.) 1996) 92 F.3d 1044, 1048 (Edgrn); U.S. v.
Wolf Child. (C.A. 9 (Mont.) 2012) 699 F.3d 1082, 1090 (Wolf Child).) It is wholly within the
power of the court to approve or alter the terms and conditions of such supervised release. (U.S.
v. Scott. (C.A.7 (Ill.) 2003) 316 F.3d 733, 736 (Scott): Edein. 92 F.3d at 1048; Wolf Child. 699
F.3d at 1090.) Additionally, a person has the right to challenge the conditions of supervised
release prior to release. (U.S. v. Lov. (C.A.3 (PA.) 2001) 237 F.3d 251 (Lov).)
California's statutory scheme allows for its mandatory conditional release program to
require insanity acquittees to agree to numerous terms and conditions which infringe upon their
significant liberty interests; are impermissibly vague; are overbroad; are completely unrelated to
the nature and circumstances of their committing offenses; and are not reasonably related to the
goals of deterrence to criminal conduct, protection of the public, medical or psychiatric care, or
any form of treatment. Under California law, if an insanity acquittee refuses to agree to these
terms and conditions, they can be subject to indefinite, continued civil confinement regardless of
whether or not they are mentally ill, dangerous, or suffer from a volitional impairment.
A.3

The State Has A Policy or Practice of Placing Insanity Acquittees Into
Alternative Forms of Confinement Which Are Neither Court-Ordered
Nor Defined In The Law In Violation of the Due Process Clause of the
U.S. Constitution.

It is a policy or practice of the State to place insanity acquittees who have been judicially
ordered to conditional release pursuant to its statutory scheme into what are sometimes called
13 of 26

"step-down" programs prior to placing those patients into the custody of the court-ordered,
conditional release program. These step-down programs are nowhere defined in the law, and
detain people without any statutory authority.
Although the State may legitimately confine persons both criminally and civilly, that
confinement must be defined in the law to comply with due process. When a person pleads or is
committed on grounds of insanity, those processes are defined in the law. (P.C. §1027 and
§1026, respectively.) When that person petitions for release, that process is defined in the law as
well (P.C. §1026.2), and stipulates release to an "appropriate forensic conditional release
program". (P.C. § 1026.2(e).)
The step-down programs referenced above are not defined in the law as part of an
"appropriate forensic conditional release program". Rather, these programs exist outside the
definition of the law, and thus detain people without statutory authority to do so. These
programs, which are not part of the conditional release program which the patient was ordered
to, have the power to ignore the terms and conditions of the patient's conditional release contract,
ignore the patient's constitutional rights, and revoke the patient's conditional release for refusing
to comply. For example, one such program, Northstar (now closed), subjected its patients to:
forced, uncompensated, daily labor; mandatory "treatment" which served no legitimate,
therapeutic interest; forced, daily walks in over 95 degree heat; group punishment for rule
infractions by individual patients; not allowing patients to have personal property which they
owned while hospitalized, expecting patients to dispose of it if they had nowhere to send it; etc.
This policy is analogous to a convicted criminal being released to court-ordered parole,
but after being released from prison and prior to being placed on parole, the parolee is
shuttled-off to someone's house where the parolee must spend the next six months performing all
manner of unpaid labor and menial tasks, and if he refuses to comply, his "parole" is revoked and
he is returned to prison.
California law nowhere authorizes nor defines the step-down programs referred to above,
and thus insanity acquittees are forced to participate in a program of false imprisonment and
slave-labor as a prerequisite to release from involuntary civil confinement.
14 of 26

A.4

Insanity Acquittees Are Subject To Retaliation And Unconstitutional
Conditions By The California Conditional Release Program In
Violation of the Due Process Clause of the U.S. Constitution.

California law mandates only insanity acquittees who have not served their maximum
term of commitment are required to participate in an "appropriate forensic conditional release
program" as part of the release process. (P.C. § 1026.2(e).) This conditional release is
exclusively facilitated through the California Conditional Release Program ("ConReP").
Petitioner's prior conditional release to ConReP (from approximately May to December
of 2012) was revoked when ConReP informed petitioner that he could not play video-games
which ConReP did not approve of and, although he complied, petitioner informed ConReP that
he was going to take legal action against ConReP for violating his First Amendment rights. (This
Court held that video-games qualify for First Amendment protection in Brown v. Entertainment
Merchants Ass'n. (2011) 131 S.Ct. 2729.) ConReP then moved for petitioner's revocation saying
that petitioner made a "threat". Court transcripts of petitioner's revocation hearing show that
petitioner made no statement which met the definition of a "threat" under any law including P.C.
§422.

Since petitioner's revocation, ConReP interviewers have repeatedly informed petitioner
that ConReP will not accept him until and unless he agrees to terms and conditions abridging his
constitutional rights and agrees to not file lawsuits against ConReP. Petitioner has refused to
agree, and ConReP has retaliated by refusing to accept him despite the fact that petitioner has
been reported to be in "full remission" from mental illness in various hospital reports.
The State cannot compel an individual to choose between exercising his or her First
Amendment rights and participating in an otherwise available program. (Thomas v. Review Bd..
(1981) 450 U.S. 707, 716.) Such a compulsion is an "unconstitutional condition", which is a
demand that a person give up a constitutional right in return for some benefit. "The reason why
such retaliation offends the constitution is that it threatens to inhibit exercise of the protected
right... Retaliation is thus akin to an 'unconstitutional condition' demanded for the receipt of a
government-provided benefit". (Crawford-El v. Britton. (1998) 523 U.S. 574, 588 n.10.)

15 of 26

California's statutory scheme mandates insanity acquittees participate in a conditional
release program which has a history of retaliating against them and subjecting them to
unconstitutional conditions.
A.5

Insanity Acquittees Are Subject To Revocation of Conditional Release
And Recommitment Without The Due Process Procedures Required
For Civil Commitment In Violation of the Due Process Clause of the
U.S. Constitution.

California law includes provisions for the conditional or unconditional release of persons
involuntarily civilly confined. Solely for insanity acquittees who have not served their maximum
term of commitment, conditional release is mandatory. (P.C. § 1026.2(e); §1026.3.) Under
California law, for an insanity acquittee to be conditionally released, the burden is entirely on the
acquittee to prove by a preponderance of the evidence in a judicial proceeding that he/she is
either not mentally ill or dangerous. Thus, to be conditionally released, the acquittee must prove
that he or she no longer meets the criteria to be classified as an insanity acquittee. However,
acquittees placed on conditional release are subject to revocation of conditional release and
recommitment as insanity acquittees without any of the due process procedures required in civil
commitment proceedings.
In Foucha. this Court ruled that once an insanity acquittee no longer meets the criteria to
be classified as an insanity acquittee, he cannot be held as such. "The [High Court] noted that
since there was no evidence or claim that Foucha was presently insane or mentally disturbed, the
basis for confining Foucha as an insanity acquittee had 'disappeared' ". (Hubbart. 19 Cal.4th at
1159, quoting Foucha. 504 U.S. at 78.)
"The [High Court] next observed that assuming Foucha could no longer be
held as an insanity acquittee consistent with Hones v. United States.
(1983) 463 U.S. 354], his continued confinement was 'improper absent a
determination in civil commitment proceedings of current mental illness
and dangerousness.' ([Foucha. 504 U.S. at 78].) The court concluded that
this standard had not been met in proceedings leading to Foucha's
recommitment, because clear and convincing evidence of a mental
disorder had not been introduced. '[I]ndeed, the State does not claim that
Foucha is now mentally ill.' ([Foucha, 504 U.S. at 80].)"
(Hubbart. 19 Cal.4th at 1160.)
According to this Court, once it has been shown that an insanity acquittee can no longer
16 of 26

be so classified, the acquittee becomes entitled to the same due process required in general civil
commitment proceedings in order to justify his or her recommitment and continued confinement.
As stated in the petition, petitioner was conditionally released in the early part of 2012,
and subsequently revoked and recommitted in December of 2012. Petitioner's conditional
release was a judicial determination that petitioner had proven by a preponderance of the
evidence that he could no longer be classified as an insanity acquittee. For the State to revoke
petitioner's conditional release and recommit him, "the State was required to afford the
protections constitutionally required in a civil commitment proceeding." (Foucha. 504 U.S. at
Part II of the opinion, citing Jackson v. Indiana. (1972) 406 U.S. 715; Baxstrom v. Herold.
(1966)383 U.S. 107, 111-12.)
According to the Supreme Court of the State of California, following Foucha and
Hendricks, for any form of involuntary civil confinement to comply with due process (1) the
person must have a mental disorder; (2) the person must be a danger to others due to that mental
disorder; and (3) the State must "demonstrate that the 'mental...deficiency, disorder, or
abnormality' causes the person to have serious difficulty controlling his dangerous behavior".
(Howard. (2005) 35 Cal.4th at 135-36; Hubbart. 19 Cal.4th at 1156.) These are the due process
requirements necessary under California law for general civil commitment proceedings.
Under California's statutory scheme, the State need prove nothing to revoke and
recommit a person as an insanity acquittee. PC. §1608 (a revocation hearing can be mandated
by the "outpatient treatment supervisor" based solely on the opinion that the person "requires
extended inpatient treatment or refuses to accept further outpatient treatment and supervision").
Under P.C. §1608, no evidence or allegation of current mental disorder, dangerousness, or
volitional impairment is required to support recommitment proceedings, or is even to be
considered at the revocation hearing.
At petitioner's revocation hearing, it was only alleged that petitioner made a "threat" as
the grounds for his recommitment. At the revocation hearing, no claim was made that petitioner
was mentally disordered or that he was suffering from a volitional impairment, and the court
made no inquiry as to either.
17 of 26

Assuming arguendo that petitioner did make a threat, that could only be construed to
establish dangerousness. Under Foucha. this is not enough for recommitment and continued
confinement of a "sane acquittee". Foucha held that it violated due process and equal protection
for the State to claim "that it may continue to confine Foucha, who is not now considered to be
mentally ill, solely because he is deemed dangerous...." (Foucha. 504 U.S. at Part III of the
opinion.)
This Court went on to define the proper due process procedures for alleged criminal acts,
such as criminal threats, of insanity acquittees who can no longer be classified as insane. "[I]f
Foucha committed criminal acts..., the State does not explain why its interest would not be
vindicated by the ordinary criminal processes...and other permissible ways of dealing with
patterns of criminal conduct... Had they been employed against Foucha..., there is little doubt
that if then sane he could have been convicted and incarcerated in the usual way". (Foucha. 504
U.S. at Part II of the opinion.)
California's statutory scheme allows for any person who has been conditionally released
to be recommitted to a State hospital without a finding of a mental disorder, dangerousness, or a
volitional impairment. This statutory scheme is fundamentally at odds with the prior rulings of
this Court, and, in petitioner's case, has caused his unlawful and continuing confinement since
December of 2012.
A.6

The Evaluations Which Form The Bases Of Insanity Acquittees' Court
Reports Are Not Recorded In Violation of the Due Process Clause of
the U.S. Constitution.

California law stipulates that once a person is acquitted on grounds of insanity and
committed to a State hospital, "the medical director of the facility shall, at six-month intervals,
submit a report in writing to the court and the community program director...setting forth the
status and progress of the [acquittee]". (P.C. § 1026(f).) It is also the policy of the California
Conditional Release Program ("ConReP") to submit reports to the court concerning the
acquittee's progress at least every six-months. (ConReP Policy and Procedure Manual, Section
1310.5.) Neither petitioner's semiannual hospital conferences (commonly called "staffings") nor
18 of 26

his semiannual ConReP interviews are recorded. These staff!ngs and interviews (hereinafter
collectively "evaluations") form the bases for the court reports mentioned above. The failure to
record these evaluations violates due process and petitioner's right to preserve and present
evidence.
The necessity to record these evaluations for the relevant due process principles involved
is undiminished regardless of whether or not these evaluations are considered adversarial.
The courts have long recognized that recording prisoners' parole hearings is required as a
matter of due process. To comply with due process, California law contains statutes for the
recording of prisoners' Board of Prison Terms ("BPT") hearings. PC. §3042(b) ("The Board of
Prison Terms shall record all those hearings and transcribe recordings of those hearings within 30
days of any hearing. Those transcripts, including the transcripts of all prior hearings, shall be
filed and maintained in the office of the Board of Prison Terms and shall be made available to the
public no later than 30 days from the date of the hearing....") PC. §3041.5(a)(4) ("The prisoner
and any person described in subdivision (b) of Section 3043 shall be permitted to request and
receive a stenographic record of all proceedings").
Petitioner has a due process right to have these evaluations recorded because "the rights
afforded prisoners set a floor for those that must be afforded [those civilly committed]".
(Hvdrick. 500 F.3d at 989, citing Youngberg. 457 U.S. at 322 (generalization added).) "Persons
who have been involuntarily committed are entitled to more considerate treatment and conditions
of confinement than criminals whose conditions of confinement are designed to punish".
(Youngberg, 457 U.S. at 321-22.)
As stated in the petition, ConReP interviewers have repeatedly stated to petitioner that
until he agrees to terms and conditions which abridge his constitutional rights and to not file
lawsuits against ConReP to advocate those rights, ConReP will not accept him regardless of
whether or not he is mentally ill or dangerous.
As stated in the petition, various hospital reports continue to use petitioner's alleged
mental condition at the time of his committing offense in 1995 to justify both petitioner's
diagnosis of a current mental disorder and his continued confinement. Petitioner has repeatedly
19 of 26

questioned the validity of his diagnosis as being inconsistent with generally accepted
professional standards of care and the diagnostic criteria in the DSM-V. Hospital employees
have willfully ignored generally accepted professional standards of care in order to perpetuate
petitioner's diagnosis of continuing mental illness.
None of the above statements are reflected in any of petitioner's court reports, and,
because these evaluations are not recorded, petitioner has no way to preserve the evidence of this
or to present it to the court.
California's statutory scheme denies insanity acquittees the recording of their evaluations
and thereby denies them the constitutional protections accorded convicted criminals, denies their
constitutional rights to preserve and present evidence, prevents them from proving that they are
subject to unconstitutional conditions and diagnoses that are not consistent with generally
accepted professional standards of care as the grounds for their continued confinement,
perpetuates their unlawful confinement, and violates the Due Process Clauses of the Fifth and
Fourteenth Amendments to the U.S. Constitution.
A.7

California's Statutory Scheme Allows For Indefinite Denial Of An
Insanity Acquittee's Hearing And All Related Procedures In Violation
of the Due Process Clause of the U.S. Constitution.

California's P.C. §1026.2 statutory scheme contains no due process or speedy trial
guarantees that the §1026.2 hearing will be held in a timely manner or not delayed without good
cause, and it is statutorily within the power of the court to withhold the hearing indefinitely.
Petitioner's Constitutional right to Due Process (Cal. Constitution, Art. 1, §§ 7 and 15;
U.S. Constitution, Fifth and Fourteenth Amendments) entitles petitioner to a full judicial hearing
on the question of his suitability for release. (People v. Soiu. (2003) 106 Cal.App.4th 1191
(Soiu); In re Reyes. (1984) 161 Cal.App.3d 656 (Reyes); People v. Endslev. (2016) 248
Cal.App.4th 110 (Endslev I).) This includes all associated rights — viz., to be present at the
hearing, to the assistance of counsel, to cross-examine adverse witnesses, to present evidence on
his own behalf, to court-appointment of an independent expert evaluator where petitioner is
indigent, and to be housed in an appropriate facility during the hearing. (See generally, In re
20 of 26

Franklin, (1972) 7 Cal.3d 126 (Franklin): People v. Tilbury, (1991) 54 Cal.3d 56 (Tilbury): In re
Jones, (1986) 260 Cal.App.2d 906; People v. Endslev. (2018) 28 Cal.App.5th 93 (Endslev ID.)
Petitioner has been proceeding under PC. §1026.2 since May of 2015, and has
consistently been denied hearings and related due process rights, thus perpetuating his unlawful
confinement.
California law provides due process protections for timely hearings in relation to all of
the State's other civil confinement schemes. Parolees civilly confined as MDOs are entitled to a
court hearing "within 60 calendar days". (PC. §2966(b).) Persons civilly confined under the
State's LPS Act as Imminently Dangerous Persons, are entitled to a hearing "within four judicial
days of the filing of the petition...." (WIC §5303.) Juveniles civilly confined upon expiration of
a juvenile sentence are entitled to a jury trial "not less than four days nor more than 30 days from
the date of the order for trial...." (WIC §1801.5.) Extension proceedings for insanity acquittees
who are nearing their maximum term of commitment stipulate a jury trial "no later than 30
calendar days prior to the time the person would otherwise have been release,....) (P.C.
§ 1026.5(b)(4).) In felony criminal cases, a person charged with a criminal offense is entitled to a
hearing within 60 days of the filing of a remittitur. (P.C. §1382.) Civil commitment proceedings
for SVPs have been held must comply with due process, and where those proceedings had been
denied for an exaggerated period of time, the SVP was entitled to immediate and unconditional
release. (People v. Vasquez, (2nd Dist. 20181 27 Cal.App.5th 36.1 By contrast, insanity
acquittees have no statutory guarantee that they will ever receive a hearing.
The Ninth Circuit Court of Appeals specifically held that where a California insanity
acquittee were subject to "injury in fact" under California's P.C. §1026.2, that acquittee would
have standing to challenge the constitutionality of that scheme through writ of habeas corpus.
(Hartman v. Summers. (9th Cir. 1997) 120 F.3d 157 (Hartman).) Such is the case at bar.
Petitioner has attempted to raise his federal questions and seek release through the
statutory scheme for 5 years, and the State courts have refused to hear him. Petitioner then
sought relief through writ of habeas corpus. The courts below held that the injury of complete
denial of hearings does not give petitioner standing to utilize writ of habeas corpus, and that he
21 of 26

must somehow exhaust the P.C. §1026.2 scheme even though the State courts have refused to
give him hearings. Young v. Weston. (C.A.9 (Wash.) 1999) 192 F.3d 870, 874 ("...[Young]
repeatedly attempted to present to the state courts evidence of the conditions of his confinement
and the quality of treatment at the Special Commitment Center. The fact that the state courts
refused to receive this evidence does not render Young's claims unexhausted").
California's statutory scheme for continued confinement of insanity acquittees is the
State's only civil confinement scheme that can deny a civil detainee's due process right to a
hearing and to raise federal questions regarding the constitutionality of their commitment. This
scheme has been used to this effect against petitioner for 5 years. The courts below then held
that petitioner has no recourse available to him other than the statutory scheme in question;
effectively converting his insanity acquittal into a life sentence without the possibility of review.
B.

Importance of the Questions Presented.

This case presents a number of fundamental questions concerning interpretation of this
Court's prior decisions. The questions presented are of great public importance because they
affect the operations of the mental health systems in all 50 states, the District of Columbia, and
hundreds of city and county mental health facilities. Congress, through the Americans with
Disabilities Act ("ADA"), has recognized the persistent problem of discrimination that civilly
detained persons have faced in the denial of their civil rights. 42 U.S.C. § 12101(a)(4) ("unlike
individuals who have experienced discrimination on the basis of race, color, sex, national origin,
religion, or age, individuals who have experienced discrimination on the basis of disability have
often had no legal recourse to redress such discrimination"). In view of the importance of
litigation concerning discrimination against civilly detained persons, and the difficulties those
persons have in pursuing legal recourse to redress such discrimination, guidance on the questions
is of great importance because it affects the ability of civilly detained, U.S. citizens throughout
the nation to receive hearings consistent with the constitutional guarantees of due process and
equal protection, and which may otherwise result in the denial of fundamental rights, being
subjected to harsher conditions of confinement than convicted criminals, and the remainder of

22 of 26

their lives in psychiatric hospitals without due process.
The importance of the issues is enhanced by the fact that the courts below have issued
rulings directly contrary to the holdings of this Court, the Ninth Circuit Court of Appeals, and
even the State Supreme Court. In Foucha. supra, this Court made numerous findings regarding
the constitutionality of continued civil confinement of insanity acquittees after the initial finding
of insanity is passed, including right to release after the acquittee is no longer mentally ill
(Foucha. 504 U.S. at 77), and that continued confinement after the person can no longer be
classified as an insanity acquittee must comply with general civil commitment proceedings.
(Idem at 78.) In Hendricks, supra, this Court determined that civil commitment complies with
due process only so long as the triggering condition involves "a volitional impairment rendering
[the person] dangerous beyond their control". (Hendricks. 521 U.S. at 358.) In Howard, supra,
the State Supreme Court, following Hendricks, held that for any form of involuntary civil
confinement to comply with due process, the person must "have serious difficulty controlling his
dangerous behavior". (Howard. 35 Cal.4th at 135-36.) In Hubbart, supra, the State Supreme
Court held that Foucha is not inconsistent with the due process principles articulated in
Hendricks. (Hubbart. 19 Cal.4th at 1161.) In Hartman, the Ninth Circuit specifically held that
an insanity acquittee suffering "injury in fact" under California's P.C. §1026.2 statutory scheme
would have standing to challenge that scheme via writ of habeas corpus.
The courts below have issued rulings contrary to all of this precedent. The courts below
have ruled that the State may create a single civil confinement scheme, distinguished from all
other civil confinement schemes, that does not have to comply with the precedent of either this
Court or even the State's own Supreme Court, and that may indefinitely withhold hearings. In
short, the State has created a civil confinement scheme that need not comply with any form of
due process and which cannot be reviewed. The lower courts' justification for this is apparent:
insanity acquittees who have not served their entire criminal sentence do not deserve due
process. A close reading of the case reveals that almost all of the constitutional violations
complained of — viz., lack of requirement of a current mental disorder or a volitional
impairment, denial of timely release, conditional release without the constitutional protections
23 of 26

accorded to convicted criminals, forms of custody not defined in the law, recommitment without
due process proceedings, and denial of hearings — evaporate once the insanity acquittee has
served his entire criminal sentence. Such denial of due process constitutes civil confinement
used to exact a criminal penalty, and is directly contrary to two prior rulings of this Court.
"...There is simply no necessary correlation between the length of the acquittee's hypothetical
criminal sentence and the length of time necessary for his recovery...." (Jones. 103 S.Ct. 3043 at
3045.) "A State, pursuant to its police power, may of course imprison convicted criminals for the
purpose of deterrence and retribution... Here, the State has no such punitive interest. As Foucha
was not convicted, he may not be punished...." (Foucha. 504 U.S. at Part II of the opinion.)
Intended or not, the courts below have tacitly authorized involuntary civil confinement
that withholds all due process, including hearings, and that cannot be held to constitutional
scrutiny. In petitioner's case, this is for the remainder of his life. The High Court should be
stirred to ask itself: "What is the nature of civil confinement? Is it to function as an alternative
form of retribution absent a criminal conviction? Why does one civil confinement scheme
withhold due process protections until the detainee has served his entire criminal sentence?" The
answers to these questions make it clear that the State's civil confinement scheme for insanity
acquittees is intended to punish and withhold release from insanity acquittees and to perpetuate
their recommitment without due process. The next question The Court should ask is: "Why has
the State refused to give hearings and to hear the federal questions?" The courts below have
ruled that the federal questions petitioner has tried to raise must be raised through the statutory
scheme in question. The courts then simply refused to give petitioner the hearing; the statutory
scheme does not require that they actually provide it. The touchstone of due process is the
protection of the individual against arbitrary governmental action. The constitutional mechanism
we have to effect that protection is the right of court access. Without that right, no protection
exists. The statutory scheme in question, singularly of all the State's civil confinement schemes,
denies that right by omission. Thus, thousands of insanity acquittees can be and are detained
without constitutionally sufficient process, and when a patient comes along who is sane enough
to challenge the constitutional infirmity of the statutory scheme, the State can simply refuse to
24 of 26

give them any hearing at all. Thus, is the statutory scheme insulated from review. The High
Court should correct the State's position that it may both withhold due process rights guaranteed
by this Court to civilly detained persons, and deny to those persons hearings regarding the denial
of those rights and their continuing confinement.

25 of 26

CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be granted.
Dated: 8-27-2020
Respectfully submitted,

{ft
Marc Endsley
NA-212360-2
Napa State Hospital
2100 Napa-Vallejo Hwy.
Napa, CA 94558-6293

26 of 26

